              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR


                                                                                           August 7, 2013

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Michael P. Colombo        d . . Z/!_ ~C ~~
               Western Regional M~;f~r Audits, Inspections, and Evaluations

Subj ect:      Verification Review of Recommendations for the Evaluation Report, "Evaluation
               of Office oflnsular Affairs' Program Management" (WR-EV-OIA-0007-2008,
               May 2010)
               Report No. WR-VS-OIA-0020-2013

        The U.S. Department of the Interior (DOl) Office oflnspector General (010) has
completed a verification review of the three recommendations presented in the subject evaluation
report. Our objective was to determine whether the recommendations were implemented by the
Office oflnsular Affairs (OIA) as reported to the Office of Financial Management (PFM), Office
of Policy, Management and Budget (PMB). PFM reported to OIG when OIA had addressed and
provided supporting documentation for each of the three recommendations in the subj ect report.
As a result, the evaluation report effectively closed February 29, 2012. Based on our verification,
we consider all three recommendations implemented.

Background

        Our May 20 10 evaluation report, "Evaluation of Office oflnsular Affairs' Program
Management," contained three recommendations relating to OIA's effectiveness in assisting the
Insular Areas: the four U.S. territories and three independent countries freely associated with the
United States.

        In a memorandum dated June 30, 20 10, OIA concurred with all findings and
recommendations in the final report. OIA also provided a list of the recommendations, along
with the associated actions that it had completed, begun, or planned. Based on this response, we
considered all three recommendations resolved but not implemented. On July 14, 2010, we
referred the recommendations to PMB for implementation tracking.

        In memoranda dated September 20, 20 10; September 30, 20 11 ; and February 29,20 12,
PFM reported that OIA had implemented all recommendations. PFM closed the evaluation
report.




                         Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

        The scope of this review was limited to determining whether OIA took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that OIA officials provided and discussed actions taken related to each of the
three recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether OIA
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       OIA has satisfactorily implemented all three ofOIG' s recommendations.

       Recommendation 1: Evaluate OIA's staff utilization and location and clarify their
       duties in order to most effectively accomplish OIA's mission.

        In response to the recommendation, OIA completed a survey of its employees to help
identify areas for improvement. OIA division directors and division employees met one-on-one
to review current position descriptions and update them as necessary. In addition, OIA developed
a workforce plan in response to a recommendation made by the Government Accountability
Office in its March 2010 report, "U.S. Insular Areas: Opportunities Exist to Improve Interior's
Grant Oversight and Reduce the Potential for Mismanagement." Based on our review of the
available documentation and discussion with the OIA accountability policy specialist, we
conclude that Recommendation 1 has been resolved and implemented.

       Recommendation 2: Consider the strategies proposed in the [Senior Executive
       Service (SES)] candidates report for improved coordination with other Federal
       agencies to increase Federal responsiveness to the needs ofthe territories.

        OIA reviewed theSES report and found that the report oversimplified the activities
necessary to develop policies specific to the insular areas and the actions of targeting and pooling
Federal resources. Despite this finding regarding the general approach of the report, OIA
concluded that the strategies proposed in the SES report mirror the ongoing activities of OIA and
other Federal agencies. After reviewing the available documentation and speaking with the OIA
accountability policy specialist, we determined that OIA considered the strategies in theSES
report and continues to coordinate with other agencies. We conclude that Recommendation 2 has
been resolved and implemented.

       Recommendation 3: Revise OIA 's performance goals and measures to
       correspond with OIA' s current mission.




                                                 2
        OIA contracted with the International Institute, Graduate School in May 2008 to develop
performance measures. The Graduate School completed a report in October 201 0 that identified
performance measures in seven categories. OIA selected several measures from the report that it
believed better correspond with OIA's mission. These updated performance goals and measures
were included in OIA ' s fi scal year 2012 budget justification and in DOl ' s "Strategic Plan for
Fiscal Years 2012-20 16." Based on our review of the available documentation, we conclude that
Recommendation 3 has been resolved and implemented.

Conclusion

       We informed the OIA accountability policy specialist of the results of this review via
email on July 24, 2013. OIA concurred with the report findings.

cc:    Nikolao Pula, Director, Office of Insular Affairs
       Nancy Thomas, 001/GAO Liaison, Office of Financial Management
       Marina Tinitali, Liaison Officer, Office of Insular Affairs




                                                 3
